USAID
OFFICE OF INSPECTOR GENERAL
              Audit of USAID/Nigeria
                     Fiscal Year 2000
                 Operating Expenses



           Audit Report No. 7-620-01-001-F

                               July 31, 2001
                            Dakar, Senegal




                                 U.S. Agency for
                      International Development
U.S. Agency for
International
Development

RIG/Dakar


July 31, 2001

MEMORANDUM
FOR:              Thomas Hobgood, USAID/Nigeria Director

FROM:             Dennis Bryant, Acting RIG/Dakar

SUBJECT:          Audit of USAID/Nigeria Fiscal Year 2000
                  Operating Expenses (Report No. 7-620-01-001-F)


This memorandum is our report on the subject audit. We have
considered your comments to the draft report and have included them
in their entirety as Appendix II. The report contains five
recommendations for your action. The draft report contained six
recommendations. However due to its immaterial dollar amount, we
removed one of the recommendations from the report and are
including it in a separate management letter.

Based upon your comments to the draft report, management
decisions have been reached for Recommendation Nos. 1.2, 2.1, 2.2,
3.1, 3.2, 4 and 5. A management decision has not been reached on
Recommendation No. 1 because we modified the recommendation,
based on additional information provided in your comments. Please
provide written notice to us within 30 days of any additional
information related to the actions planned or taken to implement this
recommendation. Furthermore, in accordance with USAID
guidance, M/MPI is responsible for determining when final action
has occurred on all recommendations. Therefore, please coordinate
final action with M/MPI.

I appreciate the cooperation and courtesy extended to our staff
during the audit.


                                                                        1
Table of                                                                           Page
Contents
           Summary of Results                                                       3

           Background                                                               3

           Audit Objective

                Did USAID/Nigeria manage and account for selected operating
                expenses and its imprest fund for Fiscal Year 2000 in accordance
                with USAID policies and procedures?                                 4

           Audit Findings                                                           4

                   FSN Salary Disbursements Should be Timely Posted                 6

                   Control Over Non-expendable Property Needs Strengthening          8

                   Advances Should be Recorded Correctly                             11

                   Internal Control over Vehicles Needs to be Improved               12

                   Original Petty Cash Receipts Should be Used                       13

           Management Comments and Our Evaluation                                    14

           Appendices

                Scope and Methodology                                               17

                USAID/Nigeria’s Management Comments                                 19




                                                                                          2
Summary of   The operating expense funding provided to USAID missions finances the
Results      salaries and support costs of USAID employees as well as the general
             administrative costs of operations. We conducted this financially-related audit to
             examine Fiscal Year 2000 cash disbursements made for USAID/Nigeria’s
             operating expenses.

             Our opinion is limited to a judgmentally selected sample of $1.3 million in
             operating expense disbursements (42%) out of a total of $3.1 million
             disbursed in Fiscal Year 2000. The audit disclosed that USAID/Nigeria, except
             as noted in the following paragraphs, had managed and accounted for these
             selected operating expenses and its petty cash imprest fund in accordance with
             USAID policies and procedures.

             The audit testing revealed that improvements in internal controls over operating
             expense funding are warranted to better ensure adequate management and
             accountability. To accomplish this, the audit report contains recommendations
             to address specific problems in the areas of (1) Foreign Service National payroll
             (page 6), (2) non-expendable property (page 8), (3) advances (page 11), (4)
             vehicle control (page 12), and (5) petty cash (page 13).

             The audit also disclosed that there are a number of risk factors which increase
             the vulnerability of USAID/Nigeria’s large rapidly expanding program, and
             these risk factors should be taken into consideration as decisions are made
             regarding USAID/Nigeria’s operations. The risk factors are identified in
             Appendix I of this report in the Scope and Methodology section.



Background   Nigeria has been declared by the U.S. Department of State as one of four priority
             countries transitioning to democracy. USAID/Nigeria's transition strategy was
             approved by USAID’s Africa Bureau in September 1999. Since then, the
             Mission has been working to address the key factors affecting the start-up and
             ongoing implementation of its programs. The key factors are: (1) personnel and
             financial resource levels, (2) planned move to Abuja, and (3) geographic
             coverage or the ability to manage programs in a country as large as Nigeria, with
             a population of about 114 million. USAID/Ghana is the accounting station and
             provides the necessary computerized accounting services.

             USAID/Nigeria implemented a large program totaling approximately $95.5
             million in total funding in Fiscal Year 2000. The current funding for Fiscal Year
             2001 is $89.9 million, but this could later increase to as much as $100 million.
             Our audit focused on the Mission’s cash disbursements for “operational
             expenses” for which $3.1 million was disbursed during Fiscal Year 2000.


                                                                                                 3
                  To facilitate program operations, USAID/Nigeria is moving from its current
                  location in Lagos to Abuja,1 the new capital of Nigeria. Most of the Mission’s
                  counterparts, such as the Government of the Federal Republic of Nigeria
                  (GFRN), other bilateral donors, and international organizations, are based in
                  Abuja.


Audit Objective   As part of its Fiscal Year 2000 audit plan, the Regional Inspector General/Dakar
                  performed an audit to answer the following question:

                  Did USAID/Nigeria manage and account for selected operating expenses
                  and its imprest fund for Fiscal Year 2000 in accordance with USAID
                  policies and procedures?

                  The audit scope and methodology are presented in Appendix I.



Audit Findings    Did USAID/Nigeria manage and account for selected operating expenses
                  and its imprest fund for Fiscal Year 2000 in accordance with USAID
                  policies and procedures?

                  For the items tested, the audit disclosed that USAID/Nigeria, except as noted in
                  the following paragraphs, had managed and accounted for selected operating
                  expenses and its petty cash imprest fund in accordance with USAID policies and
                  procedures.

                  Except as discussed in the following paragraphs, the Mission performed, as
                  appropriate, the following control functions: (1) purchase orders and receiving
                  reports were prepared; (2) purchases were competitively bid, or justification
                  supported those instances of noncompetitive bids and the prices appeared to be
                  reasonable; (3) non-expendable property (NXP) purchases were tagged and added
                  to the Mission's inventory of NXP items and (4) payments were properly
                  approved, processed and made to the correct payees.

                  Foreign Service National (FSN) salary disbursements for seven payroll periods
                  (occurring from September to December 1999) were not posted as transaction
                  disbursements until April 2000. The problem occurred because the Paris
                  Financial Services Center (FSC) did not charge payroll costs to the proper
                  appropriation, which exacerbated the delays caused by reconciling items and the
                  time lag between FSC transactions and the receipt of transaction information by
                  USAID/Ghana. Thus, we are recommending that USAID/Nigeria, through its
                  accounting station (USAID/Ghana), inform FSC/Paris of the late posting

                  1
                   USAID/Nigeria recently moved its offices from Lagos to Abuja, which is the new capital in
                  Nigeria.

                                                                                                               4
problem and request that, in the future, payroll costs be charged to the proper
appropriation.

The audit disclosed two non-expendable property (NXP) related issues that
should be resolved to improve the internal control environment. First, the
Mission was using two receiving areas; in addition to the primary receiving area
at the Embassy warehouse, there was another receiving area (referred to as an
alternate or sub-receiving area). There were no formally defined procedures for
the sub-receiving area as required. Although we could not determine why this
occurred, the Mission subsequently stated they would prepare a Mission Order
on NXP after their move to Abuja. Second, a private sale of Mission NXP was
held by the U.S. Embassy2 in Lagos without the required advertising and
knowledge of the Mission Executive Officer (EXO). We are recommending the
development of a Mission order on NXP to address these concerns.

A $16,215 disbursement was incorrectly recorded in the Mission’s records as an
expense, instead of an advance. Consequently, the accounting records
improperly reflected the transaction and the Mission did not know that the
employee who had received these advance funds still needed to account for
them. We believe this occurred because Mission personnel did not clearly
understand how to account for the transaction. Therefore, we are recommending
that the Mission develop a plan to monitor advances and develop a training plan
for its personnel.

The Mission assigned responsibility to maintain an inventory of its vehicles to
the dispatcher, thereby giving the same individual custody of the vehicles and
responsibility for the vehicle inventory records. This resulted in an internal
control weakness since the same person who had physical custody of the
vehicles also maintained the vehicle records. We are recommending that the two
duties be separated.

Some petty cash receipts related to telephone installation charges were
photocopies rather than originals, as required. This occurred because some
utilities and government service entities in Nigeria keep original documents
when payments are made. In addition, documents may be lost or accidentally
destroyed. We are recommending the establishment of a procedure to maintain
originals, or an explanation be attached as to the reason for the photocopy.

Two additional issues concerning questionable billings and the liquidation of the
sub-cashier fund are being addressed in a management letter. Also, the audit
disclosed a procurement transaction that we referred to our Office of
Investigations for further review.



2
 The U.S. Embassy was formerly located in Lagos and is now located in the new capital city of
Abuja, Nigeria. The U.S Consulate is now located in Lagos, Nigeria.

                                                                                                5
FSN Salary Disbursements
Should be Timely Posted

FSN salary disbursements for payroll periods 20 through 26 in 1999 (occurring
September 26, 1999 to January 1, 2000) totaling approximately $53,000 were
not posted as transaction disbursements until April 2000. The USAID/Nigeria
FSN payroll is posted by the accounting station (USAID/Ghana) and the FSN
payroll is a reconciling item. USAID/Ghana experienced some problems in
posting USAID/Nigeria’s FSN salary information because FSC/Paris did not
charge the payroll costs to the proper appropriation, which delayed the posting of
this information. Timely posting of significant transactions, such as payroll, is
important to producing accurate financial reports, and the lack of timely
reporting can distort the presentation and reporting of financial operations. Also,
our audit of the FSN payroll function disclosed four FSNs during one payroll
period who did not submit timesheets because they were in travel status.
According to ADS 479.3, timekeepers are responsible for maintaining the proper
time and attendance data for each assigned employee. To facilitate this process
and reduce the possibility of abuse, all employees should complete timesheets,
even when in travel status.

The Standards for Internal Control in the Federal Government issued by the
General Accounting Office (GAO) states: “Transactions should be promptly
recorded to maintain their relevance and value to management in controlling
operations and making decisions. This applies to the entire cycle of a transaction
or event from the initiation and authorization through its final classification in
summary records. In addition, control activities help to ensure that all
transactions are completely and accurately recorded.”

FSN salary disbursements for payroll periods 20 through 26 in 1999 (occurring
September 26, 1999 to January 1, 2000) totaling the local currency equivalent of
approximately $53,000 were not posted as transaction disbursements until April
2000. USAID/Ghana is the accounting station for USAID/Nigeria. The
USAID/Ghana Controller was aware of the problem of late postings of various
transactions. The USAID/Ghana Controller explained that they post the
USAID/Nigeria payroll transactions when they clear SF-1221 reconciling items
at USAID/Ghana since USAID/Nigeria payroll transactions are always
reconciling items. They are reconciling items because USAID/Nigeria was
processing its payroll together with cash vouchers through the U.S. Embassy in
Lagos.

USAID/Ghana obtains the details of all payments made by the U.S. Embassy on
behalf of USAID/Nigeria from FSC/Paris. This occurs a month later through the
SF–1221 reconciliation process. Therefore, due to the time lag, USAID
transactions processed by the U.S. Embassy (including USAID’s payroll) are
more likely to become reconciling items. USAID/Ghana had a large number of


                                                                                     6
reconciling items and they had not, in the past, been giving priority to clearing
and posting the USAID/Nigeria payroll transactions. More importantly,
USAID/Ghana experienced problems in posting USAID/Nigeria’s FSN salary
information for the last quarter of calendar year 1999 because FSC/Paris did not
charge the payroll costs to the proper appropriation. FSC/Paris charged payroll
costs to an invalid account, which prevented USAID/Ghana from reconciling
and posting the transactions. According to the Mission, this mistake added to an
extra three-month delay in USAID/Ghana’s efforts to reconcile and post the
1221 items on a timely basis.

The Controller further stated that they are making efforts to remain current on
their SF-1221 reconciliation process, and they have substantially decreased their
uncleared items from approximately 10,000 to 800, including payroll. The
approach previously used by USAID/Ghana in clearing outstanding reconciling
items was to clear out the oldest reconciling items first. The Controller believes
that they can improve the status of late payroll postings, but the postings will not
be made earlier than two months following the transaction, for the previously
described reasons. Nonetheless, this would represent a substantial improvement
over the current situation whereby payroll transactions for USAID/Nigeria were
posted up to six months after disbursement.

According to the Controller, additional reasons for the late postings include: (1)
in the vast majority of cases, appropriation data cited on the SF-11663 are
incorrect, thereby causing additional impediments since the appropriation data
needs to be corrected before posting; and, (2) postings of payroll are not done
directly from the data received on the SF-1166 vouchers, because the vouchers
are not in a format that can be directly posted to MACS. For example, payments
to FSNs are made in local Nigerian currency (Naira) and have to be converted to
U.S. dollars before posting. Therefore, worksheets are prepared for each payroll
to facilitate the posting of transactions.

However, as a result of our audit, the USAID/Ghana Controller stated that they
would rearrange their priorities for clearing and posting transactions. Thus,
USAID/Nigeria payroll transactions would now receive priority. The payroll
transactions are to be posted upon the date of the report from FSC/Paris. Giving
priority would assure a timelier posting of the USAID/Nigeria payroll
transactions.

Late postings of payroll information resulted in distorted and incorrect reporting
of payroll accounting. We concluded that the position taken by the
USAID/Ghana Controller to begin giving priority to payroll transactions is an
appropriate means of addressing the issue of late payroll postings for
USAID/Nigeria. Subsequent to our audit fieldwork, USAID/Ghana stated to us
in an email message that, “For your information, we have now fully posted all

3
 The SF-1166 is standard form used by Missions to submit requests for payments to the U.S.
disbursing office.

                                                                                             7
the outstanding payrolls identified.” In its management comments to the draft
report, the Mission stated that they have taken due cognizance of this condition.
The Mission stated that they have taken efforts to ensure that the time lag
between transactions processed by FSC/Paris is reduced to a reasonable period
of two months. However, in our opinion, a letter to FSC/Paris, informing them
of this late payment problem and the need to charge payroll costs to the proper
appropriation, will serve to reduce the risk of future delays in payroll postings.

Regarding the issue of timesheets, the audit disclosed that FSNs do not always
submit them when they are in travel status. According to ADS 479.3,
timekeepers are responsible for maintaining the proper time and attendance data
for each assigned employee. To facilitate this process, all employees should
complete timesheets to document their entitlement to compensation and to what
extent they should be paid. This is applicable even when an employee is in
travel status or, for whatever reason, is not available at his normal work site.
(There are some extreme situations, of course, when an employee cannot submit
a timesheet due to some abrupt or unforeseen event and appropriate judgement is
called for). The completion and submission of timesheets by all employees is an
important element of internal control to assure that employees are accurately
paid for the work performed. When timesheets are not properly completed and
submitted by all employees, there is an increased possibility for the abuse of
personnel and funding resources.

The following recommendations address the late posting and timesheet
problems.

       Recommendation No. 1: We recommend that
       USAID/Nigeria:

       1.1     instruct its accounting station (USAID/Ghana) to
               inform the Financial Service Center/Paris of the late
               posting problem and request that, in the future, the
               Financial Service Center/Paris charge payroll costs to
               the proper appropriation, and

       1.2     establish a requirement that all employees complete
               and submit timesheets, even when they are away from
               the Mission.

Control Over Non-expendable
Property Needs Strengthening

During the course of the audit two internal control issues related to non-
expendable property (NXP) were identified. First, the Mission was using an
alternate or sub-receiving area and there were no formally defined procedures as
required by 6 FAM 223.2 (Foreign Affairs Manual). Although we could not


                                                                                     8
determine why this occurred, the Mission was planning to prepare a Mission
Order on NXP after their move to Abuja. Second, the U.S. Embassy in Lagos
held a private sale of Mission NXP without the required advertising and
knowledge of the Mission EXO, in contravention of 6 FAM 227.3-3. This
occurred under the ICASS (International Cooperative Administrative Support
Services) arrangement and the EXO could not explain why it happened.
However, he is disappointed with the ICASS arrangement and the Mission plans
to withdraw after the move to Abuja. Furthermore, we believe the move to
Abuja could result in misplaced or lost NXP. Therefore, an immediate inventory
should be taken, after the move, to resolve any unaccounted for NXP. The
above issues have the potential to result in a partial loss of the Mission’s NXP
assets unless they are appropriately addressed.

In Fiscal Year 2000, USAID/Nigeria participated in the U.S. Embassy ICASS
system for the warehousing, control, and accountability of their NXP. During
the audit, the EXO informed us that, due to its high cost and their dissatisfaction
with the arrangement, the Mission plans to withdraw from the USAID NXP
function in ICASS after the move to Abuja. In anticipation of this change, the
EXO has already located a separate warehouse facility in Abuja for the storage
of the Mission’s NXP. As described below, the audit disclosed two primary
conditions related to USAID’s NXP that, if addressed, would improve the
internal control over its property. Furthermore, this section discusses other
aspects of the Mission’s NXP operation that could be better controlled by the
issuance of a Mission Order on NXP.

For the first condition, the audit found that USAID/Nigeria was using a sub-
receiving area to receive NXP at the USAID Mission, which is outside the
primary NXP receiving area located at the U.S. Embassy. However, there were
no written operating procedures on the receiving process for handling NXP at an
alternate site, as required. According to 6 FAM 223.2, “The receiving activities
of each establishment should be centralized. However, the PMO’s4 designation
of a central receiving area does not preclude receiving and inspection at other
areas. When sub-receiving areas are designated, written operating procedures
shall include a method of informing the central receiving area of all receipts.”
Although the Mission is moving to the capital city in Abuja, it is possible they
may establish an arrangement that will entail the usage of another sub-receiving
area. If this becomes the case, then written procedures will need to be
established. The audit could not determine why there were no written
procedures for the sub-receiving area for the USAID/Mission in Lagos.
However, the EXO later stated to us in an email message that, immediately after
the move to Abuja, they plan to inventory the property and prepare a Mission
Order pertaining to all aspects of NXP.

For the second condition, the Mission found that the Embassy, in June 2000, had
sold some Mission NXP in a private sale without the required advertising, and
4
    Property Management Officer

                                                                                      9
without the knowledge of the Mission EXO. This is prohibited by 6 FAM
227.3-3.d, which states: “Except where the nature or condition of the property
does not permit, or when local conditions prohibit, advertising shall be used for
all types of sales.” The Mission EXO stated that the Mission NXP that was sold
should have been advertised to the public and he should first have been notified.

During the exit conference, the EXO stated that the Mission received
authorization from USAID’s Office of Management Services in Washington to
use the Assistant EXO, who is a Foreign Service National (FSN), as the
Mission’s Accountable Property Officer (APO). However, the Mission had not
yet officially designated the Assistant EXO as the APO and was awaiting the
move to Abuja before doing so. According to 6 FAM 221.2-2, the APO must be
designated in writing by the property management officer (EXO). We believe
this should be included as part of the Mission Order on NXP which the Mission
intends to prepare.

It is reasonable to assume that the move to Abuja could result in some Mission
NXP being misplaced, lost, or stolen. Therefore, an immediate inventory (after
the move to Abuja) of the Mission’s NXP will benefit the Mission by assisting
them to identify any items which cannot be accounted for, and to promptly
resolve any discrepancies. Normally, the Mission takes an inventory each year
and the last one was in November 2000. During the audit, we suggested this and
the EXO agreed that they would inventory all property immediately after the
move. This is especially important since the Mission will be rapidly expanding
in staffing and operating expense funding. Accordingly, the quantity and value
of NXP items will also increase.

We concluded that it is in the best interest of USAID/Nigeria to document
various NXP related issues, by developing a Mission Order for guidance to
improve the control over their NXP. This should also reduce their NXP
vulnerability and curtail the current potential for loss of valuable Mission assets.
Although, in our opinion, a Mission Order cannot provide absolute assurance
that errors will be prevented, it does serve to increase the level of assurance.
Such a Mission Order would also serve to assist USAID/Nigeria in complying
with the requirements of the FAM regulations.

Furthermore, we believe that the issuance of a USAID Mission Order on NXP is
important so that the following issues can be addressed: (1) various NXP control
procedures (such as those governing the NXP disposal process) should be in
writing to avoid misunderstandings which oftentimes occur because of personnel
changeover, relocations, and the lack of specific instructions, especially with the
Mission no longer operating under ICASS, (2) formally defined procedures must
be written for alternate or sub-receiving areas and, (3) the APO must be
designated in writing and we believe this should be included in the Mission
Order on NXP.



                                                                                       10
The following recommendations address the issue of inventory, sub-receiving
area, disposal procedures, and the Accountable Property Officer.

       Recommendation No. 2: We recommend that
       USAID/Nigeria:

       2.1     conduct a full inventory of non-expendable property,
               as soon as possible after the move to the new office
               building in Abuja, and resolve discrepancies, and

       2.2     develop a Mission Order to address non-expendable property
               procedures, to include: property received in a sub-receiving
               area, disposal procedures for Mission property, and the
               designation and duties of the Accountable Property Officer.

Advances Should be
Recorded Correctly

Financial information should be correctly recorded. A $16,215 advance to an
employee for temporary quarters was incorrectly recorded as an expense.
Consequently, the accounting records did not properly reflect the events that had
occurred and the Mission did not know that the employee who had received
these funds needed to account for how they were spent. This error arose because
Mission personnel did not clearly understand how to account for the transaction.
As a result, the accounting records were not properly stated.

The correct and timely recording of transactions and events is an important
aspect of the financial system. The Standards for Internal Control in the
Federal Government issued by the General Accounting Office (GAO) states:
“Transactions and other significant events should be promptly recorded to
maintain their relevance and value to management in controlling operations
and making decisions. This applies to the entire process or life cycle of a
transaction or event from the initiation and authorization through its final
classification in summary records. In addition, control activities help to
ensure that all transactions are completely and accurately recorded.”

The Foreign Affairs Manual (FAM) section 464.3-5 addresses Temporary
Quarters Subsistence Allowance (TQSA) Advances and states: “When an
advance for TQSA is granted, an accounts receivable must be set up to control
the repayment of such an advance.”

One of the disbursements we examined during our audit fieldwork was a
$16,215 advance payment for temporary quarters allowance, which was made on
September 20, 2000. These funds were given to an employee who had recently
relocated to Lagos, Nigeria from Washington, DC and provided the employee



                                                                                    11
with funds to pay for essential expenses, in this case temporary lodging
expenses, until the employee’s permanent quarters were available.

This $16,215 disbursement was incorrectly recorded in the Mission’s records as
an expense, instead of an advance. Consequently, the accounting records did not
properly reflect the events that had occurred and the Mission did not know that
the employee who had received these funds needed to account for how they were
spent. During the audit fieldwork, we brought this error to the attention of the
Mission Controller and the transaction was reclassified as an advance on
December 12, 2000.

We believe that this transaction was incorrectly recorded because Mission
personnel did not clearly understand how to account for the transaction. A
training program for financial personnel would be beneficial.

In our view, training is an issue for Mission consideration at this time. After the
move to Abuja, the Mission program will be expanding and additional personnel
will be hired. The importance of training new employees for their duties and
responsibilities and the many complex operational and developmental issues
cannot be overemphasized. Since the Mission will be adding a significant
number of new employees in the near future, the prudence of a training plan is
evident. In addition, the development of such a plan would allow the Mission to
review, assess, and determine training needs for both existing and new staff in
such areas as finance, procurement, etc.

The following recommendation is made to improve the Mission’s management
of advances and the development of a training plan to improve the skills of
Mission personnel.

       Recommendation No. 3: We recommend that
       USAID/Nigeria:

       3.1     develop a plan to monitor all advances, and

       3.2     assess the training needs for their current and
               incoming Foreign Service National staff and
               develop a training program to ensure that they
               receive appropriate training for their respective
               responsibilities.

Internal Control over Vehicles
Needs to be Improved

ADS E536.5.14.b.2 states that a Mission Inventory Motor Vehicles System
(MMVIS) is to be maintained and updated annually by each USAID Mission.
USAID/Nigeria does maintain an inventory of all Mission vehicles. However,


                                                                                      12
this inventory is maintained and controlled by the dispatcher, who also has
access to all the vehicles. This condition is contrary to one of the elements of
internal control -- the segregation of duties; namely, record keeping and the
custody of assets.

The Standards for Internal Control in the Federal Government issued by the
General Accounting Office (GAO) contains examples of control activities. One
category of controls is the segregation of duties, in which key duties and
responsibilities need to be divided or segregated among different people to
reduce the risk of error or fraud. This should include separating the
responsibilities for recording information and handling the related assets.

The Mission assigned responsibility to maintain an inventory of the Mission
vehicles to the dispatcher, thereby giving the same individual custody of the
vehicles and responsibility for the vehicle inventory record. This condition does
not achieve the goal of a segregation of duties. Consequently, in our opinion,
internal control over vehicles needs to be improved.

We verified the existence of seven Mission vehicles, which were acquired in
Fiscal Year 2000.5 All seven vehicles were accounted for. However, there
were errors in the inventory database. The serial numbers and/or the vehicle's
registration numbers were not correctly recorded in the inventory database for
all seven vehicles. These errors were brought to the attention of the dispatcher
who made the necessary corrections. The information in the inventory
database, for the vehicles acquired in FY-2000, is now correct. However, we
are making a recommendation for the segregation of duties.

         Recommendation No. 4: We recommend that USAID/Nigeria
         segregate the control of the vehicle record-keeping function
         from the vehicle custodial function.

Original Petty Cash
Receipts Should be Used

USAID guidance requires that vouchers and payment documents be originals.
ADS 630.2.c states: “Paying Offices (USAID Mission Controllers) must
maintain appropriate internal controls to process payments in the correct
amount, payable to the proper vendor, and within the time frame established
by Prompt Pay Regulations.” ADS 630.3.2.1.b titled "Systems to Avoid
Duplicate Payments" states: “Paying offices must establish appropriate
procedures to prevent duplicate payments. Vouchers, voucher schedules, and
supporting documents must be identified during the payment process by an
acceptable means that will prevent them from being paid again.” ADS
630.3.3.3 states: “Payment documents must be originals and as specified in

5
 The Mission has several other vehicles in their inventory. These vehicles were not counted
because they were not in the audit period; that is, they were not acquired in Fiscal Year 2000.

                                                                                                  13
                 the obligating document. If the original document is lost or destroyed, the
                 certifying official must attach to the payment copy an explanation of the
                 circumstances involved.”

                 We examined supporting documentation for disbursements made by the Mission
                 sub-cashier. USAID/Nigeria does not have a cashier, but operates with a sub-
                 cashier fund, which is part of the U.S. Consulate cashier in Lagos.6 When the
                 amount of cash in the sub-cashier fund is close to being exhausted, the fund is
                 replenished by preparing a report of all the disbursements and making a
                 submission to the Embassy cashier. These disbursements are recorded in the
                 accounting records and are submitted to the Embassy cashier, who provides
                 currency equal to the amount of the disbursements.

                 Seven of the 50 payment receipts (14 percent) that we examined from the sub-
                 cashier fund were photocopies. These seven receipts were related to telephone
                 installation charges. Mission personnel informed us that some utilities and
                 government service entities in Nigeria keep original documents when payments
                 are made. In addition, documents may be lost or accidentally destroyed.
                 Although the absence of an original document may occur from time-to-time, the
                 absence of an original document poses an increased risk of fraud and the
                 possibility of a duplicate or false payment. Thus, to address this situation, we
                 are making the following recommendation:

                          Recommendation No. 5: We recommend that
                          USAID/Nigeria establish a procedure to require original
                          documents for all payments and, when an original is not
                          available, an explanation of the circumstances involved
                          should be prepared and attached to the copied document.




Management       USAID/Nigeria's comments on the draft report generally agreed with our
Comments and     findings and related recommendations. However, based upon additional
Our Evaluation   information provided by the Mission in its comments, we made some minor
                 modifications in our final report, which included clarifying the wording in
                 Recommendation No. 1.1. In addition, due to the immaterial dollar amount
                 involved, we removed our finding relating to the need to resolve questionable
                 billings and are including this finding in a separate management letter.

                 Based upon the Mission’s comments, we determined that management
                 decisions have been reached for Recommendation Nos. 1.2, 2.1, 2.2, 3.1, 3.2,

                 6
                  The U.S. Embassy in Nigeria is located in Abuja, the capital of Nigeria. At this time the
                 Embassy activities in Abuja are limited; for example, there is no cashier in Abuja. The Embassy
                 cashier is located at the U.S. Consulate in Lagos. Before the U.S. Embassy moved to Abuja, it
                 was located in Lagos.

                                                                                                                   14
4, and 5. A management decision has not been reached on Recommendation
No. 1.1 because we modified the recommendation, based on additional
information provided in management's comments. These comments are
included in their entirety in Appendix II of this report and are summarized
below.

The draft report had two parts to the first recommendation. In its management
comments, the Mission provided additional information concerning the late
posting of FSN salary information. We changed the report to reflect this
additional information and modified the first part of our recommendation.
Regarding Recommendation No. 1.2, the Mission stated that it would instruct
all timekeepers and employees that they must submit time sheets even when
they are away from post. This statement constitutes a management decision;
the recommendation can be closed with the submission to M/MPI of a copy of
the documentation requiring staff to submit timesheets when away from post.

Recommendation No. 2 consists of two parts. The Mission agreed with
Recommendation No. 2.1 concerning a full inventory of property in Abuja.
However, this inventory cannot take place until a warehouse has been leased.
Regarding recommendation number 2.2, the Mission stated that the new EXO
would develop a Mission Order on NXP procedures. Based upon these
actions, the Mission has made management decisions regarding both parts of
Recommendation No. 2. This recommendation can be closed when
documentation is submitted to M/MPI to prove the inventory in Abuja has
been completed and the Mission Order for NXP procedures has been
implemented.

The draft report contained a finding and recommendation concerning
questionable billings. This issue was removed from the report and is being
addressed in a separate management letter.

Recommendation number 3 has two parts. Recommendation No. 3.1 concerns
the development of a plan to monitor all advances. The Mission stated that
they have now requested monthly copies of advance aging and status reports
from their accounting station (USAID/Ghana), which will enable them to
more efficiently monitor their advances and liquidations. Regarding
Recommendation No. 3.2, the Mission stated that its Deputy Director would
chair a Training Committee responsible for developing a training program for
each new employee. These actions constitute a management decision. This
recommendation can be closed when the Mission submits proof that it is
receiving the advance reports and when it submits a copy of the training
program to M/MPI.

Recommendation No. 4 recommends segregating the vehicle record-keeping
function from the vehicle custodial function. The Mission stated that the in-
coming EXO would segregate these functions when he arrives; this action


                                                                                15
constitutes a management decision. This recommendation can be closed when
the Mission sends documentation to M/MPI evidencing these functions have
been segregated.

For Recommendation No. 5, the Mission stated that it will require an original
payment document or, if not available, an explanation of the circumstances
involved before the cashier will make a payment. Based upon this action, the
Mission has made a management decision regarding Recommendation No. 5.
To close this recommendation the Mission should send a copy of the notice
requiring original documentation to M/MPI.




                                                                                16
                                                                                  Appendix I




Scope and     Scope
Methodology
              We audited selected USAID/Nigeria operating expenses and the petty cash
              imprest fund in accordance with generally accepted government auditing
              standards. The audit was conducted at USAID/Nigeria in Lagos, Nigeria from
              November 29, 2000 to December 6, 2000 and from January 24, 2001 to January
              31, 2001. Our audit also included a visit to the proposed USAID/Nigeria office
              in Abuja, Nigeria.

              We performed a financially-related audit and reviewed a judgmental sample of
              USAID/Nigeria’s operating expense disbursements made in Fiscal Year 2000
              as described below in the methodology. Our scope included reviewing the
              Mission's procedures for processing purchases, receiving the items purchased,
              maintaining non-expendable property inventory, including vehicle records,
              processing disbursements and the Mission's petty cash fund. During the course
              of the audit information came to our attention indicating abuse or illegal acts.
              Thus, we considered the affect on the audit objective and consulted with the
              RIG/Dakar director and investigator to determine how to address the issues
              involved. As a result, our scope was expanded, in limited cases to include
              disbursement transactions initiated in FY 2000, but not finalized until FY 2001.

              In performing the audit, we relied on the Mission Accounting Control System
              (MACS) reports for USAID/Nigeria operating expense disbursements and other
              financial information. We did not assess the reliability of this data.

              Methodology

              As part of developing the audit objective and performing audit fieldwork, we
              identified five risk areas for USAID/Nigeria: (1) The Mission is physically
              relocating from Lagos to Abuja. (2) The Mission staff will increase
              significantly and new employees will be hired in Abuja. (3) The Mission
              operating and program budget will increase significantly. (4) The Mission’s
              accounting station is located in another country, at USAID/Ghana. (5)
              Nigeria is reported to be one of the more corrupt countries in the world.
              Based upon these conditions, we assessed the control risk at USAID/Nigeria
              to be high.

              To assess management controls, we examined the procedures related to
              procurement, non-expendable property, payroll, and petty cash. Based upon
              our assessment of a high control risk and relevant management controls, we
              established an audit materiality threshold of one percent of the $1.3 million
              selected for testing.

              To answer the audit objective, we:


                                                                                               17
                                                                      Appendix I



•   Interviewed responsible personnel at USAID/Nigeria, USAID/Ghana, and
    selected vendors.

•   Reviewed internal controls relevant to our audit objective.

•   Judgmentally selected 21 disbursements totaling $1.3 million in operating
    expense disbursements from the universe of 1,366 disbursements totaling
    $3.1 million disbursed in Fiscal Year 2000. The sample of $1.3 million
    represents 42% of the total $3.1million disbursed. We examined relevant
    supporting documentation for the sample items.

•   Performed a cash count of the Mission’s two sub-cashier funds and
    examined documentation to support one of the replenishments for each
    fund.

•   Our test of payroll disbursements included verifying each Foreign Service
    National employee (for a selected payroll period) as a valid employee of the
    Mission.

USAID/Nigeria provided, at our request, a satisfactory management
representation letter.




                                                                                   18
                                                                            Appendix II



Management
Comments




                                                                 USAID/Nigeria




Memo
       To:     RIG/Dakar, Henry Barrett

       From: Sherry E. Suggs, Acting Mission Director

       Date: 06/07/01

               Audit of USAID/Nigeria’s Fiscal Year 2000 Operating Expenses
               (Report No. 7-620-01-00X-F)



USAID/Nigeria regrets the delay in providing our comments to the draft report. It
arrived at the mission during the time the Deputy was on an extended TDY to Lagos,
and the Director was in the U.S.

USAID/Nigeria and USAID/Ghana's comments to the six audit recommendations of the
draft audit are as follows:

Recommendation No. 1:

         1.1   USAID/Nigeria should develop an arrangement
               with their accounting station (USAID/Ghana) to
               give priority to posting payroll transactions as
               they occur, and

         1.2   establish a requirement that all employees
               complete and submit time sheets, even when they
               are away from the Mission.

               USAID/Ghana's response is:


                                                                                          19
                                                                           Appendix II


             We are of the opinion that the finding fails to
             take into account, several reason for the delayed
             postings as stated below:

             1)   Our inability to post the September 26 - December 99 payroll was
                  exacerbated by FSC/Paris not charging the payroll cost to the proper
                  appropriation. From October 1 - December 99 they improperly
                  charged payroll cost to an invalid account, which prevented us from
                  reconciling and posting the transactions. Such action also resulted in
                  shortage of funds under the FY 99 appropriation. This had to be
                  resolved through SF-1 081 to facilitate their transfer between
                  appropriations. FSC/Paris's mistake added to an extra 3-month delay
                  in efforts by USAID/Ghana to reconcile and post the 1221 items on a
                  timely basis.

             2)   USAID/Ghana receives SF-1221 from FSC/Paris one month in
                  arrears.

             3)   The accompanying SF-1166 contains limited information, which is
                  not complete for postings without further researching:

                  a) Total FSN payroll cost in US Dollars by appropriation symbols

                  b) Payroll cost in Naira for each employee with appropriation
                     symbols

                  c) Payroll listing of employees with net paycheck amount and
                     deduction.

                  Upon receipt of the incomplete information, USAID/Ghana sets up
                  a worksheet to identify fund cite for each employee and also to
                  reconcile the payroll cost amongst program and OE funded FSNs.
                  Even if the posting are prioritized, the minimum time lag equals 2
                  months.

                  We have, however, taken due cognizance of the recommendation,
                  efforts have been made to ensure that the time lag between
                  transactions processed by FSC/Paris, and Mission is reduced to a
                  reasonable period of two months. However, we cannot ensure that
                  FSC/Paris will not make the same mistake the next year-end.

1.2   USAID/Nigeria agrees with the recommendation and will instruct all
      timekeepers and employees that they must submit time sheets even when they
      are away from post.



                                                                                           20
                                                                                             Appendix II

    Recommendation No. 2

          USAID/Nigeria should conduct a full inventory of all non-expendable property,
          as soon as possible after the move to the new office building in Abuja, and
          resolve discrepancies, and

          develop a Mission Order to address non-expendable property procedures,
          to include: property received in a sub-receiving area, disposal procedures for
          Mission property, and the designation and duties of the Accountable Property
          Officer.

    Response:

    USAID/Nigeria agrees in principle to the recommendation. However, a full
    inventory of USAID/Nigeria's NXP by USAID/Nigeria employees cannot be
    undertaken until
    USAID is allowed by State security personnel to lease a ware house in Abuja so that
    all NXP from several locations can be consolidated. The newly arriving long term
    USPSC EXO will be tasked to develop a Mission Order on NXP procedures.

    Recommendation No. 37
    3.1    USAID/Nigeria should review the billings with the Regional Legal Advisor,
           Executive Officer and Controller to determine what costs, if any, were
           legitimately incurred and should be paid, and

    3.2    issue a memorandum, to their staff, that outlines the responsibility to inform
           the EXO (or procurement official) of all communications with contractors or
           their agents, and such communications should also be documented in the
           procurement files.
    Response:

    USAID/Nigeria agrees to these recommendations. During the next TDY of the RLA,
    the billings in question will be reviewed and a resolution will be made by all the
    concerned parties in this matter. The in-coming EXO will issue the memo per
    recommendation 3.2.

     Recommendation No. 47

    4.1     USAID/Nigeria should develop a plan to monitor all advances, and


7
 Recommendation No. 3 and its related finding were removed from the final report and are being included in a
separate management letter. Responses to Recommendation Nos. 4, 5 and 6 now relate respectively to
Recommendation Nos. 3, 4 and 5 in the final report


                                                                                                               21
                                                                                             Appendix II

    4.2     assess the training needs of their current and in-coming Foreign Service
            National staff and develop a training program to ensure that they receive
            appropriate training for their respective responsibilities.

    Response:

    USAID/Nigeria and USAID/Ghana agree to the recommendations. USAID/Ghana's
     response is that it acknowledges an error occurred in the inputting into MACS of the
    correctly coded USAID/Nigeria advance. Adequate control system has now been put
     in place to prevent the recurrence of such mistake. MACS A -18 (Advance aging) and
    A08 (Advance status) reports will be sent monthly to USAID/Nigeria to enable them
     monitor advances and liquidations more efficiently.

    USAID/Nigeria has been assessing the training needs of all our new FSN employees,
    and have sent several FSNs to training at overseas locations. Now that we have all
    re-located to Abuja, the Training Committee, chaired by the Deputy Director, will be
    tasked to develop a training program for each new employee to ensure that s/he
    receive appropriate training for their respective responsibilities.

    Recommendation No. 57

    USAID/Nigeria should segregate the control of the vehicle record-keeping function
    from the vehicle custodian function.

    Response:

    The in-coming EXO will review the division of functions within his office and will
     segregate the control of the vehicle record-keeping function from the vehicle
    custodian function.

    Recommendation No. 6:7

    USAID/Nigeria should establish a procedure to require original documents for all
    payments and, when an original is not available, an explanation of the circumstances
     involved should be prepared and attached to the copied document.

    Response:

    We agree with the recommendation and note that the photocopied telephone
    installation receipts were for telephone installation charges in Abuja paid through the
     Embassy sub-cashier advance to the EXO. Now that we are re-located in Abuja and

7
 Recommendation No. 3 and its related finding were removed from the final report and are being included in a
separate management letter. Responses to Recommendation Nos. 4, 5 and 6 now relate respectively to
Recommendation Nos. 3, 4 and 5 in the final report




                                                                                                               22
                                                                            Appendix II

 have our USAID/Nigeria cashier reporting directly to FSC/Paris, more stringent
cashier procedures are in place and if an original payment document is not available,
 an explanation of the circumstances involved will be prepared and attached to the
copied document before the cashier will make payment.

USAID/Nigeria recognizes that regularly conducted audits are excellent management
tools that should be used to identify issues that may need attention. We appreciate
the opportunity to work with the RIG/Staff to help us identify minor adjustments that
 need to be made in mission operations that are funded by Operating Expenses. We
also appreciate the inclusion of our comments in the draft report.




                                                                                          23
